SEP 22 2000


MEMORANDUM FOR:             BERNARD E. ANDERSON
                            Assistant Secretary
                             for Employment Standards

                                /S/
FROM:                       JOHN J. GETEK
                            Assistant Inspector General
                             for Audit

SUBJECT:                    OFCCP Information System Security Needs Improvement
                            Letter Report No. 09-00-005-04-001

During a Region IX computer security controls review, we noted several weaknesses that
require Office of Federal Contract Compliance Programs (OFCCP) headquarters action to
correct. We met with OFCCP officials on July 19, 2000, to discuss these weaknesses and the
corrective actions identified in this letter report. On September 18, 2000, OFCCP provided
comments on a draft report. These comments are summarized in this report and attached in
their entirety as Attachment A.

Specifically, we are recommending that the OFCCP Information System (OFIS) headquarters
personnel (1) assign security responsibility, (2) develop security plans, and (3) properly
reauthorize application processing. OFCCP generally agreed with the recommendations and
stated that corrective actions either had or would be taken. Additionally, we are issuing a
separate letter report to the regional director recommending specific action to correct
weaknesses within the regional director’s purview.

Introduction and Background

The OFCCP administers laws and regulations that prohibit discrimination by Federal
contractors and subcontractors. To assist in accomplishing this mission, OFCCP developed
two information systems: (1) the Case Management System (CMS) and (2) the Executive
Management System (EIS). Specifically, the CMS is used to measure program performance.
CMS is a data entry and reporting tool that provides a display of data concerning the
processing of both compliance reviews and complaints. The EIS allows users and managers to
access data that track the accomplishments of individual organizational units.

For security purposes, the CMS and the EIS are considered to be a single processing
application referred to as the OFIS. The security of the OFIS is governed by OMB Circular
A-130. This Circular was issued to provide uniform governmentwide information resources
management policies as required by the Paperwork Reduction Act of 1980.

Objective, Scope, and Methodology

Our audit objective was to determine whether OFIS Region IX has adequate and effective
management, operational, and technical security controls in place to prevent unauthorized
disclosure or modification of sensitive data, or disruption of critical services of its information
systems.

Based on the results of our work at Region IX, we expanded our scope to include certain
computer security controls at OFCCP headquarters that impacted Region IX security
controls. Our review was limited to general controls, including security plan development,
risk assessment and contingency planning. This report covers only the issues that are the
responsibility of OFCCP headquarters.

We interviewed OFCCP headquarters, Region IX and contractor personnel who were
involved in operating and using the information systems. We also obtained and reviewed (1)
available security documents from the Office of the Chief Information Officer, (2) training
files for OFCCP headquarters and Region IX personnel and (3) security documentation in the
OFCCP Region IX and headquarters offices.

The principal criteria used during our audit were:

   C   OMB Circular A-130: Management of Federal Information Resources.

   C   Federal Information System Controls Audit Manual (FISCAM), (GAO/AIM-12.19.6).

   C   National Institute of Standards and Technology (NIST) Special Publications:

       C   An Introduction to Computer Security: The NIST Handbook, NIST Special
           Publication 800-12.

       C   Generally Accepted Principles and Practices for Securing Information Technology
           Systems , NIST Special Publication 800-14.



                                                -2-
       C   Guideline for Developing Security Plans for Information Technology Systems ,
           NIST Special Publication 800-18.

We conducted our fieldwork from January 10, 2000, through June 23, 2000. We held an exit
conference with OFCCP headquarters on July 19, 2000. At that meeting, we discussed our
findings and recommendations. We have incorporated OFCCP comments into this letter
report.

We performed our work in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Our audit included such tests of policies and
procedures and other auditing procedures we considered necessary in the circumstances.

Audit Results

OFCCP Needs to Improve Security Program for OFCCP Critical Systems

OFCCP needs to improve its security program for the OFIS to better protect the agency’s
critical systems. OFCCP has not assigned security responsibility, developed security plans
for its major application or properly reauthorized application processing, as outlined in OMB
Circular A-130. Although OFCCP headquarters officials told us some effort has been applied
to these areas, they did not provide documentation to support the level of effort claimed.
A systematically and comprehensively planned adequate, cost-effective security program for
the OFIS is necessary to protect OFCCP sensitive mission data from vulnerability.

OMB Circular A-130 requires several basic attributes as fundamental for providing adequate
security for the application. Specifically, Appendix III of OMB A-130 requires, as a
minimum, agency security programs for major applications to include assigning security
responsibility, developing a security plan, reviewing security periodically, and reauthorizing
application processing.

OFCCP has not complied with these requirements. Specifically, the OFCCP has not:

! Assigned OFIS system security to a management official knowledgeable about the
  system, its use, and the personnel involved.

! Developed a security plan for the OFIS covering such features as application rules,
  specialized training, personnel security, contingency planning, technical controls,
  information sharing, and public access controls.

! Performed a review of the security controls in the OFIS at least every 3 years.



                                              -3-
Our review of the OFIS documentation and interviews with OFCCP employees involved in
operating the systems identified:

! No employee was able to define their individual responsibilities over system security.




                                             -4-
! No employee using the OFIS systems had received any security awareness training.

! No contingency plan had been documented for backup planning or disaster recovery.

Because of these weaknesses, employees or contractors may be violating security standards
and not be aware of it. In Region IX, for example, we found that a contractor was storing
backup tapes of OFCCP sensitive data at a personal residence. Neither the contractor nor
OFCCP personnel realized the security breach this posed. If behavior rules had been
developed, and security training provided, this might not have occurred. To ensure
appropriate system security, OFCCP should develop a security program for the OFIS that
incorporates all control requirements in OMB Circular A-130, Appendix III.

According to OFCCP officials, they have begun work on an extensive security program which
will correct the weaknesses noted.

Recommendations

We recommend the Assistant Secretary for Employment Standards ensure OFCCP officials:

1. Assign OFIS security responsibility to an OFCCP management official in accordance with
   OMB Circular A-130.

2. Require OFCCP users of the OFIS to obtain security training.

3. Complete the security program development for the OFIS.

ESA Comments on Draft Report

On September 18, 2000, ESA provided written comments on the draft report. The comments
are included in their entirety in Attachment A. In response to the finding and recommendation
ESA stated:

       At the time the audit was conducted, OFCCP had not completed its security risk
       assessment, nor had it completed a System Security Plan for OFIS. Both of these
       activities were under way and were completed in August. Since their completion,
       both the OFIS Vulnerability Assessment Report and System Security Plan (SSP)
       have been submitted to the Office of the Chief Information Officer and the OIG.

       As part of the development of the OFIS SSP, OFCCP management designated a
       Program Security Officer, in writing, who is responsible for the security of OFCCP
       information systems.

                                              -5-
ESA also agreed to provide security training and stated:

       OFCCP concurs with the OIG finding that training regarding desktop security was
       not provided for the CMS and EIS systems. OFCCP is not responsible for such
       training. The ESA Division of Information Technology Management and Services
       (DITMS), which is responsible for the entire infrastructure on which OFCCP
       systems operate, is in the process of developing an ESA-wide Computer Security
       Awareness Training Programs to be implemented in FY 2001.

ESA did not agree that a security breach involving storage of back-up tapes at a personal
residence applied to OFCCP and requested that we change the audit report.

OIG Evaluation of the OFCCP Comments

ESA's response to the first recommendation to designate an OFCCP management official
responsible for OFIS security is sufficient to resolve and close this recommendation.

ESA's response to the second recommendation resolves the recommendation but we will keep
the recommendation open until the ESA-wide Computer Security Awareness Training
Program is developed and implemented.

Regarding the security breach, while we confirmed that the back-up tapes being stored at a
personal residence do not contain OFIS operational data, they do contain OFCCP user
identification and password information which we believe is sensitive and should not be stored
at a personal residence of an ESA contractor. Therefore, we did not change the report.

We request a response to this report within 60 days. If you have any questions regarding this
report, please contact Linda G. Darby, Regional Inspector General for Audit, at (415) 975-
4030.

Attachment




                                              -6-
          Attachment A

OFCCP Comments on the Draft Report
